U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 29, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Ignacio Arreola-Mendoza v. United States of America,
S.Ct. No. 20-6552

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 2,
2020, and placed on the docket on December 8, 2020. The government’s response is due on
January 7, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 8, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6552
ARREOLA-MENDOZA, IGNACIO
USA

MARJORIE A. MEYERS
FEDERAL PUBLIC DEFENDER
440 LOUISIANA STREET
SUITE 1350
HOUSTON, TX 77002-1669
713-718-4600
MARGY_MEYERS@FD.ORG

